     The Cost Structure of the Postal Service:
      Facts, Trends, and Policy Implications




                               July 20, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-007
U.S. Postal Service Office of Inspector General                                  July 20, 2011
The Cost Structure of the Postal Service                                      RARC-WP-11-007



                     The Cost Structure of the Postal Service:
                      Facts, Trends, and Policy Implications


                                         Executive Summary

Over the past few years, the U.S. Postal Service has experienced one of the most
tumultuous periods in its history. Total mail volume dropped 20 percent to 171 billion pieces
from its peak in 2006 with unprecedented financial losses totaling $20 billion over the last
four years. In 2010 alone, the Postal Service experienced its largest 1-year net loss of $8.5
billion. This paper reviews the major components of the Postal Service’s cost structure in
2010 and provides insight into some of the more critical policy issues confronting the
organization in the wake of new legislative requirements and record losses in volume and
revenue.

In our discussion of the Postal Service’s cost structure, we present 12 key points:

    1. Mail delivery is labor intensive. Labor costs are 80 percent of Postal Service
       expenses. Saving cost is primarily about saving labor cost. Fully adjusting labor costs
       to decreases in volume is challenging because the Postal Service’s delivery network
       has significant fixed costs.

    2. From 2008 through 2010, workhours fell 14 percent, but increasing compensation
       and benefits costs resulted in total personnel costs declining by only 6 percent.

    3. Since 1972, the total cost of benefits to the Postal Service has risen an astounding
       448 percent above inflation, while the real amount spent on wages has declined by
       nearly 3 percent. This extraordinary increase in benefit costs is due to three factors: a
       general trend of higher benefit costs that has affected most U.S. companies, the
       gradual transfer of postal retiree benefit costs from the federal government to the
       Postal Service, and repeated overcharges for these retiree benefit costs.

    4. The Postal Service had been unfairly overcharged $75 billion for the Civil Service
       Retirement System (CSRS) pensions and has overfunded the Federal Employees’
       Retirement System (FERS) by an additional $7 billion. In addition, the Postal
       Service’s retiree health liabilities were previously exaggerated by using a 7 percent
       rather than a 5 percent health care inflation rate. Correcting overpayments and
       transferring any surplus to the retiree health fund would fully fund the Postal Service’s
       retiree obligations and eliminate the need for further prefunding (except for normal
       costs as needed). Moreover, in the unlikely event that the Postal Service ceases
       operations, it could still utilize its available assets such as real estate to satisfy
       liabilities.

    5. Unless the issues of overcharging and overfunding are addressed, the cost structure
       will spiral out of control and put the Postal Service’s financial sustainability at risk.


                                                  i
U.S. Postal Service Office of Inspector General                                   July 20, 2011
The Cost Structure of the Postal Service                                       RARC-WP-11-007


    6. Under the current flawed payment structure, retiree healthcare costs are projected to
       grow to $9.8 billion by 2016 ($5.8 billion for the mandated prefunding payment and
       $4.0 billion for retiree premiums). This amount comprises approximately 15 percent
       of total projected postal revenue in 2016 and further reduces the amount of
       discretionary spending available to Postal Service management.

    7. The Postal Service has shed more than 200,000 employees over the past decade.
       As it continues to reduce employee numbers through attrition and reductions in force
       (RIFs), there is a net cost savings to the Postal Service in offering early retirement to
       eligible employees based on current retiree pension and benefit structure.

    8. The Postal Service appears to have greatly improved its efficiency in the last decade.
       Workhours have declined 27 percent since 2000 — a massive drop. Total Factor
       Productivity (TFP), a measure of the Postal Service’s operational efficiency, improved
       10 percent over the same period. The measures tend to validate one another
       regarding increasing efficiencies.

    9. The price cap structure for market dominant products is showing signs of strain.
       Since 2000, cumulative unit costs for three of the four market dominant mail classes
       (Periodicals, Standard Mail, and Package Services) have far outpaced increases in
       the Consumer Price Index (CPI-U). Even First-Class Mail unit costs, which have
       historically tracked closely with the CPI-U, are rapidly increasing as volumes decline.
       This is resulting both in an increasing inability to cut enough cost to enable revenue
       to cover expenses as well as a potential increase in the number of products that are
       unable to cover their costs.

    10. Despite a drop in the overall number of reported postal worker–related injuries and
        illnesses, annual payouts for workers’ compensation claims have remained relatively
        steady. Workers’ compensation expenses, however, are based on the measurement
        of future liability, which is extremely sensitive to changes in economic assumptions.
        Lately, the estimated liability for future claims has grown significantly due primarily to
        changes in the assumed discount rate, and unrelated to the actual annual costs.

    11. Transportation fuel costs remain vulnerable to volatilities in the energy markets. The
        Postal Service needs to implement fuel and contract management best practices to
        offset rising fuel prices.

    12. A continuing freeze in capital investment, while saving the Postal Service in the short
        term, may paradoxically lead to higher costs in the future, as it defers projects that
        could potentially improve productivity, such as information technology (IT) upgrades,
        network rightsizing, and the purchase of energy efficient vehicles. Rightsizing the
        network to meet decreasing demand is vital to the future viability of the Postal
        Service.




                                                  ii
U.S. Postal Service Office of Inspector General                                                                    July 20, 2011
The Cost Structure of the Postal Service                                                                        RARC-WP-11-007




                                                    Table of Contents

Introduction ...................................................................................................................... 1 

Labor Costs ..................................................................................................................... 2 
          Labor Cost Trends ................................................................................................ 4 
          Labor Usage ......................................................................................................... 6 
          Retirement Costs .................................................................................................. 9 
          Issues and Policy Options .................................................................................. 10 

Non-Labor Costs ........................................................................................................... 15 
          Purchased Transportation and Fuel Costs ......................................................... 17 
          Issues and Policy Options .................................................................................. 19 

Capital Investment ......................................................................................................... 19 
          Issues and Policy Options .................................................................................. 20 

Conclusion ..................................................................................................................... 22 




                                                                 iii
U.S. Postal Service Office of Inspector General                                                              July 20, 2011
The Cost Structure of the Postal Service                                                                  RARC-WP-11-007


                                                            Tables

Table 1: Postal Service Employees, 2010 and 2000 ....................................................... 6 

Table 2: Effect of Early Retirement on Current Costs and Retirement
                 Obligations ........................................................................................... 13 

Table 3: Costs by Non-Labor Category, Change over Same Period Last Year
                (SPLY) ................................................................................................. 15 

Table 4: Capital Commitments, 2010 ............................................................................ 20 

Table 5: Attributable Costs, Contribution, and Cost Coverage, 2010 ............................ 24 

Table 6: USPS Total Factor Productivity 2010 .............................................................. 25 


                                                           Figures

Figure 1: Postal Service Major Cost Categories, 2010 .................................................... 1 

Figure 2: USPS Labor Costs, 2010 ................................................................................. 3 

Figure 3: Wage and Benefit Expenses, 1972 to 2010 (Adjusted for Inflation
               and Indexed) .......................................................................................... 4 

Figure 4: Growth of Delivery and Mail Processing Costs and Inflation, 2000 to
                2010 ....................................................................................................... 7 

Figure 5: Annual Workhour Trends (millions) .................................................................. 8 

Figure 6: Cumulative Increases in CPI-U vs. Attributable Unit Cost by Mail
               Class, 2000 - 2010............................................................................... 11 

Figure 7: Workers’ Compensation Trends and Injury/Illness Cases, 2002 –
               2010 ..................................................................................................... 15 

Figure 8: Purchased Transportation by Mode, 2010...................................................... 17 

Figure 9: Domestic Transportation by Mode, 2010 and 2000 ........................................ 18 

Figure 10: Capital Expenditure and Mail Volume Trends, 2000 - 2010 ......................... 21 

Figure 11: Total Factor Productivity and Mail Volumes 2000-2010 ............................... 26 




                                                              iv
U.S. Postal Service Office of Inspector General                                                     July 20, 2011
The Cost Structure of the Postal Service                                                         RARC-WP-11-007


                                                   Appendices

Appendix A: Product Cost Allocation ............................................................................. 24 

Appendix B: Total Factor Productivity............................................................................ 25 




                                                         v
U.S. Postal Service Office of Inspector General                                                           July 20, 2011
The Cost Structure of the Postal Service                                                               RARC-WP-11-007




                                   The Cost Structure of 2010


Introduction
Because the Postal Service is a network business, a large portion of its cost is fixed and
does not depend on the amount of mail the Postal Service delivers each day.1 Unlike
some other network industries such as water or telecommunications, the Postal
Service’s last mile of service is provided not by pipes or wires, but by people. The
business of delivery is a labor-intensive enterprise. As a result, the Postal Service has a
relatively high proportion of labor costs. Figure 1 breaks out total operating expenses by
labor, non-labor, and capital.

                              Figure 1: Postal Service Major Cost Categories, 2010


                                            Total = $75.4 Billion
                                                                                         Capital2
                                                                                          $2.5 b  
                                                                                           3%

                                               Non‐Labor1 
                                                $12.6 b  
                                                  17%




                                                                       Labor
                                                                       $60.3 b 
                                                                        80%


               Notes: 
               1 Refers to all expenditures not dealing with labor or capital such as materials,  services, and 

               transportation costs. 
               2 Refers to depreciation and amortization



Source: U.S. Postal Service Annual Report 2010


1
    For example, the act of delivering four letters to an address does not cost much more than delivering one.


                                                             1
U.S. Postal Service Office of Inspector General                                                 July 20, 2011
The Cost Structure of the Postal Service                                                     RARC-WP-11-007


Fiscal Year 2010 operating expenses were $75.4 billion, compared to $71.8 billion in
2009, an increase of $3.6 billion or 5 percent.2 Labor costs are 80 percent of Postal
Service expenses. This percentage has remained relatively constant over the years
despite major advances in technology and the automation of postal operations. This
phenomenon is due in large part to three issues. First, there is the inherit fixity of the
delivery function. Second, there is the growth in delivery points and the personnel
required to deliver to the new addresses cannot be fully offset by automation. Third,
postal management has been challenged to manage labor cost in reverse, meaning that
retirement eligible personnel are not leaving the organization fast enough in proportion
to volume losses to yield higher savings.

The other two categories include non-labor costs, which represent 17 percent of the
total, while depreciation and amortization of capital costs account for the remaining
3 percent.

In reviewing labor, non-labor, and capital expenses, this paper seeks to provide the
major trends and cost drivers in each category as well as present insight with
implications for the ongoing policy debate about the future of the Postal Service.


Labor Costs
Labor costs include wages, retiree health benefits, retiree pension payments, health
benefits of current employees, and workers’ compensation. It should be noted that
much of the expense for retiree health benefits
relates to liabilities incurred in previous years and    In 2010, the Postal
was not incurred for work done this year. In 2010,       Service had 583,908
the Postal Service had 583,908 career employees,         career employees, the
                                                3        smallest career
the smallest career complement in 10 years.
Including part-time and seasonal employees, the          complement in 10 years.
Postal Service had 671,687 employees in 2010 for
which it spent $60.3 billion on labor costs.

Figure 2 breaks out the components. Labor-related expenses have represented 80, 79,
and 78 percent of total operating expenses for 2010, 2009, and 2008, respectively.4




2
  U.S. Postal Service, 2010 Report on Form 10K, November 15, 2010, http://www.usps.com/financials/ar/ welcome.
htm #10k, p. 13.
3
  U.S. Postal Service, 2010 Comprehensive Statement on Postal Operations, December 2010, http://www.usps.com/
strategicplanning/publications.htm, p. 41.
4
  U.S. Postal Service, 2010 Report on Form 10K, p.16.


                                                      2
U.S. Postal Service Office of Inspector General                                                                July 20, 2011
The Cost Structure of the Postal Service                                                                    RARC-WP-11-007

                                       Figure 2: USPS Labor Costs, 2010


                                  Wages                                                                 $37.7 

                                                            $7.7 
                Retiree Health Benefits


                           Retirement*                 $5.8 
                                                                     Total = $60.3 billion
                        Health Benefits                $5.1 


                       Workers' Comp.               $3.6 


                                  Other        $0.4 


                                           ‐             10             20             30             40 
               *This is the retirement expense for current employees. It consists primarily of Postal Service 
               contributions to Federal Employees' Retirement System (FERS), Social Security, and the Thrift 
               Savings Plan.


Source: U.S. Postal Service Annual Report 2010


The largest category of labor costs is wages, making up 63 percent, while the second
largest, retiree health benefits, accounts for 13 percent of total operating costs.
Retirement income expenses account for another 10 percent and are comprised of
contributions to Social Security and the Thrift Savings Plan (TSP) as well as payments
to the Federal Employees’ Retirement System (FERS).5 The Postal Service spent
$414 million on other compensation expenses including life insurance, the uniform
allowance, and employees’ relocation costs.6 Benefit costs comprise 30 percent of total
operating expenses.7

As a result of collective bargaining, Postal Service employees pay less for their health
and life insurance than other federal workers. Employees on average paid for 20
percent of their premiums in 2010; this was 19 percent in 2009 and 18 percent in 2008.8
Other federal workers pay 28 percent. As for life insurance premiums, postal workers
pay nothing while other federal workers pay two-thirds of their premiums. The U.S.
Government Accountability Office (GAO) found that if the Postal Service’s share of life




5
  The PAEA ended regular Postal Service contributions for the Civil Service Retirement System (CSRS) and the Dual
CSRS plan, because the Postal Service was fully funded. Any payments for the pensions of current employees are
allocated for the FERS plan.
6
  U.S. Postal Service, 2010 Annual Report, http://www.usps.com/financials/ar/welcome.htm, p. 44.
7
  U.S. Government Accountability Office, High Risk Series - An Update, Report No. GAO-11-278, February 2011, http
://www.gao.gov/new.items/d11278.pdf, p. 46.
8
  Ibid, p. 21.


                                                               3
U.S. Postal Service Office of Inspector General                                                               July 20, 2011
The Cost Structure of the Postal Service                                                                   RARC-WP-11-007


and health insurance premiums was reduced to what is paid by most federal agencies,
the Postal Service would have saved about $615 million in 2009.9

Finally, workers’ compensation expenses totaled $3.6 billion in 2010 accounting for both
current payouts for claims (cash expense) and future liability (non-cash). These
expenses often vary significantly from year to year because the Postal Service accounts
for workers’ compensation costs based on accrued estimates that are highly sensitive to
changes in assumptions. Actual annual payouts for workers’ compensation have been
more stable, averaging around $1 billion.

Labor Cost Trends

A review of labor cost trends may provide some insight into future labor cost growth. In
1972, benefit payments were only 8 percent of total Postal Service operating expenses;
by 2010, this portion has risen to 30 percent. Figure 3 shows the disparate growth in
wage and benefit expenses adjusted for inflation and indexed to 1972. The total real
cost of benefits to the Postal Service has increased by 448 percent over the past
39 years. The amount spent on wages in real terms declined nearly 3 percent, even as
volume grew 96 percent over the same time period. That is, wages have remained
relatively constant while mail volume has nearly doubled.

      Figure 3: Wage and Benefit Expenses, 1972 to 2010 (Adjusted for Inflation and Indexed)

                                       6.0
                                             Congress requires $5.4 B ‐ $5.8 B annual           Up 448% 
                                       5.5      health benefit prefunding payments 
                                                from 2007 to 2016, but lowers 2009 
                                       5.0
                                                    payment requirement to $1.4 B.
                                       4.5
                                       4.0
                    Index (1972=1.0)




                                       3.5
                                       3.0
                                       2.5
                                                                        Benefit Expense Trend

                                       2.0
                                       1.5                                                       Down 
                                                                                                 2.6%
                                       1.0
                                       0.5
                                                           Wage Expense Trend
                                       0.0




Sources: “Budget, Financial, and Operating Statistics,” Budget and Financial Analysis, U.S. Postal Service and U.S.
Postal Service Annual Reports 2006, 2008, 2009, 2010

9
 U.S. Government Accountability Office, U.S. Postal Service: Strategies and Options to Facilitate Progress Toward
Financial Viability, Report No. GAO-10-455, April 12, 2010, http://www.gao.gov/new.items/d10455.pdf, p. 28.


                                                                 4
U.S. Postal Service Office of Inspector General                                                      July 20, 2011
The Cost Structure of the Postal Service                                                          RARC-WP-11-007


The recent extreme fluctuations in benefits are due to the annual payments of the
Postal Service into its Retiree Health Benefit Fund (RHBF) authorized from 2007 to
2016. The Postal Accountability and Enhancement Act (PAEA) directed the Postal
Service to make substantial annual payments into the Postal Service RHBF over ten
years, from 2007 to 2016. (Read more about this in the Retirement Costs section of this
paper). To date, these payments included $5.4 billion in 2007 and $5.6 billion in 2008.
In 2009, Congress, through an appropriations bill, allowed the Postal Service to pay
only $1.4 billion instead of the originally required $5.4 billion payment, but in 2010, the
Postal Service was required again to make a full $5.5 billion payment to the RHBF.

The large increase in benefit costs since 1972 is partly a reflection of general trends in
the economy and not isolated to only the Postal
Service or federal workforce. As a result of cost         As a result of cost
increases, especially for health care premiums,           increases, especially for
benefits now form a much larger share of                  health care premiums,
compensation for most U.S. workers. Some of the           benefits now form a
increase in benefit expenses at the Postal Service,       much larger share of
however, is due to Congress shifting an ever greater      compensation for most
portion of retirement and health care costs from the      U.S. workers.
federal government to the Postal Service.

Health care costs are continuing to increase for both current employees and retirees.
However, the growth in retiree premium costs is exacerbated by the increase in the pool
of retirees for whom the Postal Service must pay.10 In addition, the Postal Service is
contributing to fund future retiree premiums. Though these payments are meant to
secure the Postal Service’s long-term financial viability by prefunding retiree health
benefits, they are exceptionally large expenses in the short term; in 2010 retiree health
benefits cost the Postal Service $7.7 billion ($5.5 billion for the PAEA prefunding
payment and an additional $2.2 billion for health premiums for current retirees).

Premium costs are forecasted to continue increasing at a rapid pace at least in the short
term. For 2011 alone, medical cost inflation is estimated at 9 percent for both the private
and public sectors, far above projections for CPI growth.11 The combination of the
prefunding payment and the premium payment for current retirees is projected to reach
$9.8 billion by 2016 ($5.8 billion for the prefunding payment and $4.0 billion for retiree
premiums), nearly 15 percent of total postal revenue. The large, congressionally
mandated prefunding payments were designed to provide a secure and healthy future
for current Postal Service employees, but are ironically undermining efforts to keep the
Postal Service solvent in the near term.




10
   The Postal Service pays the employers’ share of Federal Employees Health Benefits Plan (FEHBP) premiums for
eligible employees who retired after July 1, 1971 and their survivors. The cost is prorated based on the employee’s
years of service after July 1, 1971.
11
   PWC, Behind the Numbers: Medical Cost Trends in 2011, June 2010, http://www.pwc.com/us/en/healthindustries/
publications/behind-the-numbers-medical-cost-trends-2011.jhtml.


                                                         5
U.S. Postal Service Office of Inspector General                                                July 20, 2011
The Cost Structure of the Postal Service                                                    RARC-WP-11-007


Labor Usage

Labor expenses are also affected by the way the Postal Service utilizes labor. Table 1
shows the number of Postal Service employees by category in 2010 and 2000. Since
2000, the Postal Service has shed over 200,000 career employees (26 percent), and
has experienced an 18 percent drop in volume while increasing the number of delivery
points by 10 percent. The top four employee categories by size are still city carriers,
clerks, rural carriers, and mail handlers, although they have switched order since 2000
as some new automation and efforts to optimize the network have further reduced the
complement of clerks.
                                Table 1: Postal Service Employees, 2010 and 2000

                 Employee Category                  2010       2000         Difference    Percent Change

 City Carriers                                      192,180    241,079          -48,899                 -20%
          1                                         164,581    291,494
 Clerks                                                                        -126,913                 -44%
 Rural Carriers                                      66,845        57,111         9,734                  17%
 Mailhandlers                                        48,650        60,851       -12,201                 -20%
 Maintenance (all)                                   42,388        47,830        -5,442                 -11%
 Supervisors/Managers                                27,792        38,797       -11,005                 -28%
 Postmasters, etc.                                   23,111        26,121        -3,010                 -12%
 Headquarters/Other                                  18,361        24,255        -5,894                 -24%
     Total Career                                   583,908    787,538         -203,630                  -26%
 Rural Sub/RCA, etc.                                 51,801        57,532        -5,731                 -10%
 Casual, transitional, etc.                          24,628        43,745       -19,117                 -44%
 Postmaster Relief                                   11,350        12,423        -1,073                  -9%
     Total Non-Career                                87,779    113,700          -25,921                  -23%
 Total                                              671,687    901,238         -229,551                 -25%
 1
     Mail Processing Clerks, Nurses, and Motor Vehicle Operators
Source: U.S. Postal Service Annual Reports 2000 and 2010

Mail volume declined some 16 percent between 2008 and 2010. During this time the
total number of employees, including part-time and casuals, fell 12 percent in just the
last two years, to about 672,000. Although the Postal Service’s adjustment to its
employee complement could be interpreted as lagging, it is continuing to implement
further personnel reductions.

Of the $15.4 billion in labor costs for clerks and mailhandlers, mail processing accounts
for the largest share: $12.1 billion.12 Mail processing covers three major categories of
activities — sortation and distribution of mail; allied operations such as collection, mail
preparation, and platform operations; and, finally, miscellaneous support activities. This
segment covers work in post offices, and processing and other facilities. The move from


12
  U.S. Postal Service, Cost Segments and Components Report, 2010, http://www.usps.com/financials/csc/welcome.
htm.


                                                      6
U.S. Postal Service Office of Inspector General                                                          July 20, 2011
The Cost Structure of the Postal Service                                                              RARC-WP-11-007


manual sortation to automation and the increase in worksharing have had a significant
impact on mail processing labor costs.

Figure 4 below illustrates a growing divergence between the two major labor cost
categories of delivery and mail processing, challenging the core mission of the
organization. On the one hand, major strides have been made in reducing mail
processing costs: these have fallen 19 percent since 2000 in line with mail volume,
which fell 18 percent due to continued reductions in personnel and increased
automation. On the other hand, delivery, which is the largest component of labor costs,
has risen by 27.4 percent during that same time period and was at $22.1 billion in 2010
due in large part to the high fixed costs associated with maintaining and expanding the
network to account for new delivery points.

              Figure 4: Growth of Delivery and Mail Processing Costs and Inflation, 2000 to 2010

     40.0%



     30.0%
                                                                                                                 27.4%
                                                 Delivery Costs
     20.0%

                                                                         Consumer Price Index
     10.0%
                                                                                                                 7.9%

      0.0%
                 2000   2001    2002     2003     2004        2005   2006      2007     2008      2009        2010

     ‐10.0%
                                                                              Mail Processing Costs

     ‐20.0%
                                                                                                                 ‐19.2%


Sources: U.S. Postal Service Cost Segments and Components Reports 2000 to 2010 and U.S. Department of Labor,
Bureau of Labor Statistics website



Delivery costs are thus driving overall labor costs higher than the more modest 8
percent growth in inflation experienced between 2000 and 2010. A recent OIG report
determined that as volume declines, “the mail processing, transportation, and retail
functions will shrink considerably but delivery will shrink much less, leaving it larger than
the other major functions combined.”13 This trend has significant strategic implications
as postal management will need to place increased effort into making the delivery
network as efficient as possible.

Attention is given to any idle workers in postal facilities as mail volume has been
declining. This is called standby time, and occurs when workers are idled but paid due

13
  U.S. Postal Service Office of Inspector General, Implications of Declining Mail Volumes for the Financial
Sustainability of the Postal Service, Report No. RARC-WP-10-006, September 29, 2010, p. 7.


                                                          7
U.S. Postal Service Office of Inspector General                                                    July 20, 2011
The Cost Structure of the Postal Service                                                        RARC-WP-11-007


to reassignments and reorganization efforts. In September 2009, the Postal Service was
averaging about 45,000 hours of standby time per week, but a year later, this was down
a significant 40 percent to 27,000 per week.14 This translates into 1.4 million workhours
in 2010, which represents less than one percent of 2010’s 1.18 billion workhours.
Although reducing standby hours remains a top management priority, it is small relative
to overall workhours and does not take away from the substantial progress made in
reducing workhours.

Since 2002, workhour reductions have been the single largest savings achievement.
From 2009 to 2010, total workhours decreased from 1.26 billion to 1.18 billion, or by 6
percent. Despite the addition of over 387,000 new rural delivery points, rural delivery
hours decreased in 2010 due to delivery optimization initiatives and continued mail
volume declines.15 Scheduling improvements in customer service operations and
improved management of routes and work schedules in city delivery contributed to
saving 18 million and 16 million workhours, respectively.16 In addition, mail processing
network consolidations and improved automation resulted in workhour savings of 26.6
million workhours in mail processing in 2010.17

For 2011, the total workhour reduction goal is 49 million or 4 percent. If met, this
achievement would help to realize the $2 billion in planned cost reductions for 2011.
Figure 5 shows that this goal continues the long-term trend of declining workhours.

                               Figure 5: Annual Workhour Trends (millions)
      1,800 
                                                   Cumulative Drop of 443
      1,600 
                                                  Million  Workhours (‐27%)
      1,400 

      1,200 

      1,000 

        800 

        600 

        400 

        200 

         ‐
                2000    2001     2002     2003     2004       2005   2006     2007    2008     2009      2010

Sources: U.S. Postal Service Integrated Financial Plan 2011 and U.S. Postal Service 2010 10K Report




14
   Sean Reilly, “USPS job cuts barely dent $49B payroll,” Federal Times, December 5, 2010, http://www.
federaltimes.com/article/20101205/PERSONNEL03/12050303/1001.
15
   U.S. Postal Service, 2010 Report on Form 10K, p. 18.
16
   U.S. Postal Service, 2010 Comprehensive Statement on Postal Operations, p. 19.
17
   U.S. Postal Service, 2010 Report on Form 10K, p. 25.


                                                          8
U.S. Postal Service Office of Inspector General                                                     July 20, 2011
The Cost Structure of the Postal Service                                                         RARC-WP-11-007


Retirement Costs

Nearly 18 percent of the Postal Service’s 2010 operating expenses were related to
retirement benefits. More than half of this burden, or $7.7
billion, was for retiree health care. The PAEA of 2006,         In the current
enacted when the Postal Service was in a significantly          environment of
better financial position, instituted a 10-year transition from reduced mail
the Postal Service’s pay-as-you-go health benefit funding       volumes, these
to a system under which the Postal Service would prefund        exceptional
retiree health benefits. During this transition, the Postal     payments have
Service pays twice: $2.2 billion in 2010 for its share of       contributed to large
current retirees’ health benefit premiums and $5.5 billion to   losses
prefund future retiree health care.
The prefunding payments are extremely unusual. They are very large, fixed in law, and
do not adjust to changing actuarial assumptions. Private sector companies make
calculations based on actuarial assumptions and can choose whether they pay cash or
just expense their obligations. The federal government does not even prefund retiree
health care. In the current environment of reduced mail volumes, these exceptional
payments have contributed to large losses for the Postal Service.

The Postal Service also spent $5.8 billion in 2010 on programs that provide retirement
income including the FERS pension program, Social Security, and the TSP, which
resembles a 401(k) program. The Postal Service no longer has to make contributions
into the older federal pension program, the CSRS, because it is almost fully funded.18

There is a history of overcharging the Postal Service’s pension programs. In 2003 and
2006, laws were enacted to remedy CSRS overpayments, but in 2010 an OIG report
                               found that the Postal Service had again been
 As of the end of 2009,        overcharged for the CSRS pensions of employees who
 the amount of the FERS        worked both for the Postal Service and its predecessor,
 surplus had reached           the Post Office Department.19 This time the amount was
 $6.9 billion, yet no          $75 billion. FERS is also overfunded and has a persistent
 reduction has been            surplus.20 As of the end of 2009, the amount of the FERS
 made to the Postal            surplus had reached $6.9 billion, yet no reduction has
 Service’s required            been made to the Postal Service’s required
 contributions.                contributions.21 In addition, the Postal Service’s retiree
                               health liabilities were previously exaggerated by using a 7
                               percent rather than a 5 percent health care inflation rate.
18
   The Postal Accountability and Enhancement Act of 2006 (PAEA) returned the CSRS costs of years of military
service to the federal government. This change left the Postal Service’s CSRS pension obligations overfunded, so the
PAEA ended the Postal Service’s contributions for CSRS. The $17.1 billion in excess CSRS funding as of 2006 was
transferred to the RHBF. The PAEA also temporarily stopped payments for any supplemental unfunded liability
through 2016. Starting in 2017, however, the Postal Service will be responsible for making amortized payments for
any remaining unfunded CSRS liability. As of the end of 2009, this unfunded liability resulting from changes in
assumptions and differences between assumptions and experience was calculated to be $7.3 billion.
19
   U.S. Postal Service Office of Inspector General, The Postal Service’s Share of CSRS Pension Responsibility,
Report No. RARC-WP-10-001, January 20, 2010.
20
   U.S. Postal Service Office of Inspector General, Federal Employees Retirement System FERS Overfunding,
Report No. FT-MA-10-001, August 16, 2010.


                                                         9
U.S. Postal Service Office of Inspector General                                                 July 20, 2011
The Cost Structure of the Postal Service                                                     RARC-WP-11-007



The OIG has advocated using these overcharges to fund the Postal Service’s retiree
health obligations and pay down debt. If the $75 billion CSRS overcharge were added
to the more than $300 billion the Postal Service has already set aside for retiree
pension and health benefits, it would wipe out the Postal Service’s current unfunded
liability. The Postal Service need only fund the cost of the future benefits earned by
employees each year (normal cost) when necessary. Additionally, the Postal Service
could still utilize its available assets including its sizable real estate holdings to satisfy
remaining liabilities.

Another recent OIG report advised to “reform the Postal Service’s prefunding of its
health and pension obligations by returning the amounts the Postal Service has
overpaid and by allowing it to adopt the same funding targets commonly used in the
private sector — 80 percent for pensions and 30 percent for retiree health care.”22 The
Standard and Poor’s companies’ (S&P500) median prefunding level for pensions in
2009 was 79 percent of liabilities. The GAO reported that many experts consider at
least 80 percent prefunding to be sound for government pensions. For retiree health
care, the OIG determined that the average level at which Fortune 1000 companies’
prefund health care is 28 percent. Utilizing this standard in the future would provide the
Postal Service with a means of halting its current financial slide. During financially
lucrative periods, the organization could choose to prefund at higher levels.

Issues and Policy Options                                             If the $75 billion CSRS
                                                                      overcharge were added to
In reviewing the current cost structure of the Postal                 the more than $300 billion
Service, three various issues related to labor costs                  the Postal Service has
stand out for further analysis, including problems                    already set aside for retiree
with the current price cap used to set rates for                      pension and health
market dominant postal products, the effect of early                  benefits, it would wipe out
retirement on overall retirement costs, and the                       the Postal Service’s current
growing cost burden of workers’ compensation on                       unfunded liability.
the Postal Service.

CPI Price Cap Disconnection with Market Dominant Mail Volumes
One of the most significant trends in evaluating Postal Service costs concerns the use
of the price cap tied to the CPI-U for all market dominant products. The CPI-U is defined
as the “measure of the average change over time in the prices paid by urban
consumers for a market basket of consumer goods.”23 The CPI-U price cap is the
centerpiece of the PRC’s regulatory authority and was intended to be an effective
mechanism for controlling Postal Service costs. The price cap received a great deal of
attention in September 2010 when the Commission ruled against the Postal Service’s

21
   President Obama’s 2012 budget has proposed giving back the overfunded amount in amortization payments over
30 years.
22
   U.S. Postal Service Office of Inspector General, Implications of Declining Mail Volumes for the Financial
Sustainability of the Postal Service, Report No. RARC-WP-10-006, September 29, 2010.
23
   U.S. Department of Labor, Bureau of Labor Statistics, http://www.bls.gov/cpi/cpifaq.htm#Question_1.


                                                      10
U.S. Postal Service Office of Inspector General                                                   July 20, 2011
The Cost Structure of the Postal Service                                                       RARC-WP-11-007


request for approval of an exigent rate case which would have increased rates an
average of 5.6 percent across all market-dominant products.

For years, average cost increases for First-Class Mail tracked closely with increases in
the CPI-U. However, the recession of 2008 to 2009, in combination with the
accelerating pace of diversion to electronic communication, has undone this historical
relationship with per piece costs far outpacing CPI-U growth. Even before the economic
downturn, the Postal Service had difficulty in keeping costs below CPI-U for all of the
market dominant mail classes with the exception of First-Class Mail (see Figure 6).
When evaluating cumulative unit cost increases over the past decade as compared to
inflation, all of them have increased more than CPI-U. Package Services and
Periodicals, products traditionally requiring more handling, had cost increases far higher
than the cumulative CPI-U increase of 24 percent while First-Class Mail unit costs
average just above that percentage. This disconnection is resulting both in an
increasing inability to cut enough costs to enable revenue to cover expenses while also
causing additional products to fall below required cost coverage requirements.
   Figure 6: Cumulative Increases in CPI-U vs. Attributable Unit Cost by Mail Class, 2000 - 2010

          60%
                                                                                         55%

          50%
                                              46%             CPI is 24%

          40%


                                                                    30%
          30%
                        25%

          20%



          10%



           0%
                      First Class          Periodicals           Standard          Package Services


Sources: CPI Program at Bureau of Labor Statistics, U.S. Department of Labor, and U.S. Postal Service Cost and
Revenue Analysis (CRA) Reports

One approach, highlighted in a 2010 OIG study, concluded that the Postal Service will
have to raise prices above the CPI-U to break even. The report stated that the Postal
Service should remain financially sustainable at least down to 100 billion pieces if it is
allowed to raise prices above the CPI-U to levels that prevail in other developed




                                                         11
U.S. Postal Service Office of Inspector General                                                      July 20, 2011
The Cost Structure of the Postal Service                                                          RARC-WP-11-007


countries.”24 Such an approach would require a series of significant price increases and
regulatory approval given the current low prices offered on market dominant products
and services compared to foreign posts in such places as Europe and Japan.

Another approach that policymakers might consider would be an expansion of the
current formula used to set the cap. Instead of using solely the CPI-U index calculated
by the Bureau of Labor Statistics (BLS), a more balanced approach would add an “X”
factor often used in other U.S. and foreign regulated industries. This would provide an
offset to account for gains in efficiency and could be deducted from any CPI increase.
This would continue to apply pressure to the Postal Service to reduce costs.

The formula should also include a “Y” factor that would allow for any pass-through costs
resulting from exogenous or recurring costs which could quantify inefficiencies such as
the pre-funding of retiree health benefits, the provision of the Universal Service
Obligation (USO), or other statutorily based programs such as the Alaska Bypass
Program. The formula could also include a “Z” factor for one-time costs such as an
energy crisis or a natural disaster. This overall approach would provide a sensible “quid
pro quo,” allowing the Postal Service to pass along cost burdens unaccounted for in the
current arrangement, while allowing for offsets to account for efficiency gains and
ensure that postal customers could share in the cost savings.

Effect of Early Retirements on Retirement Costs
As mail volume declines, the Postal Service has made a great effort to reduce its
employee complement. This has been aided by the high number of retirement eligible
employees in the postal workforce. The number of career employees has declined by
more than 100,000 from 2006. In 2009, the Postal Service offered retirement incentives
                              to certain employees, and more than 20,000 clerks and
   Postal commentators        mail handlers took advantage.25 According to the Postal
   have advocated for         Service, that early retirement offer saved the organization
   even more aggressive       nearly $350 million.26 Postal commentators have
   efforts to reduce the      advocated for even more aggressive efforts to reduce the
   number of employees.       number of employees.27

These retirements raise the question of what effect early retirement has on the Postal
Service’s retirement obligations. Table 2 offers some insight into this issue. It describes
the effect on both current employee costs and future retirement obligations, which it is
assumed the Postal Service will have to fund fully at some point. The assumption is that
employees who retire early are not replaced by new employees. The effect of pension
increases versus salary increases is also not considered. Employees who retire earlier
typically receive a smaller annuity. However, retirees receive automatic pension
increases based on inflation in retirement. If these inflation increases are greater than

24
   U.S. Postal Service Office of Inspector General, Implications of Declining Mail Volumes for the Financial
Sustainability of the Postal Service, Report No. RARC-WP0-006, September 29, 2010.
25
   Sean Reilly, “Exclusive: Postal Service RIFs, early retirements coming soon,” Federal Times, January 10, 2011.
26
   Ibid.
27
   Dead Tree Edition, “Here's How the Postal Service Can Get Back Its Pension and Benefits Overpayments,”
December 10, 2010, http://deadtreeedition.blogspot.com/2010/12/heres-how-postal-service-can-get-back.html.


                                                         12
   U.S. Postal Service Office of Inspector General                                                         July 20, 2011
   The Cost Structure of the Postal Service                                                             RARC-WP-11-007


   the salary increases the employee would receive while working, the savings to the
   Postal Service from early retirement would be reduced.

   Overall, offering more early retirements for eligible employees would create additional
   cost savings. For retiree health benefits, there would be little total savings. Generally,
   the Postal Service would have to pay more for FEHB premiums in retirement but it
   would save on premium costs for the employee. As the Postal Service pays a greater
   share of premium payments for employees than the rest of the federal government
   (discussed earlier in this paper), it would save as Postal Service retirees pay premiums
   according to federal rates. The problem, however, is how to incentivize further buyouts
   that the Postal Service cannot afford to offer in its current financial state.
                  Table 2: Effect of Early Retirement on Current Costs and Retirement Obligations
                                                               Effect on Retirement
   Area of Change           Effect on Current Costs                Obligations                           Net Effect
 CSRS Pension                  Ends current salary           Increases years covered by                Net reduction
 Plan                                                       pension, but reduces the total
                                                          pension benefit paid out for future
                                                            years under pension formula
 FERS Pension Plan
        Annuity                Ends current salary           Increases years covered by                Net reduction
                                                            pension, but reduces the total
                                                          pension benefit paid out for future
                                                            years under pension formula
        TSP                     Ends TSP match                        No effect                          Reduction
        Social Security        Ends Social Security                   No effect                          Reduction
                                  contribution
 Retiree Health                Ends health benefit        Increases years of health benefit       Slight reduction in overall
 Benefits                   premium payments as an         premium payments as a retiree         costs as the Postal Service
                                   employee.                                                       pays a higher share of
                               Adds health benefit                                              premiums for employees than
                             premium payments as a                                                         retirees
                                     retiree

Source: OIG Analysis

   Workers’ Compensation
   Overall, the Postal Service allocated $3.6 billion to workers’ compensation in 2010.28
   Costs associated with workers’ compensation are divided into two categories for the
   Postal Service. The first is an operating expense that is termed a “chargeback” and is
   paid annually to the Department of Labor’s (DOL) Office of Workers’ Compensation for
   Postal Service employees suffering an injury or illness while on the job. The chargeback
   covers medical expenses, compensation for wage loss and DOL administrative fees
   (approximately 4 percent of the total amount) for the expenses of cases incurred during
   the current fiscal year. This amount has increased slightly over the past few years with
   the Postal Service paying DOL $1.1 billion for the cost of new cases.



   28
        U.S. Postal Service, 2010 Annual Report, p. 44.


                                                              13
U.S. Postal Service Office of Inspector General                                                      July 20, 2011
The Cost Structure of the Postal Service                                                          RARC-WP-11-007


A second and more complicated category of expenses unrelated to actual annual costs
is for Postal Service liability related to the present value of the total amount the agency
is expected to pay in the future for postal workers injured in that particular fiscal year.
This amount is based on a complicated formula dependent upon the date of the injury,
pattern of historical payments, frequency and severity of the injuries, and economic
assumptions related to trends in future costs.29

Future costs are difficult to predict and vary quarterly based on changes in the discount
and inflation rates and on the actuarial re-evaluation of existing cases. For example, a
1-percent increase in the discount rate would decrease the liability of the Postal Service
by $1 billion while a decrease of 1-percent would increase liability by almost $1.3
billion.30 As of September 30, 2010, the present
value of the liability for future workers’ compensation    Future costs are difficult
payments was estimated at $12.6 billion, an                to predict and vary
increase of some 24.2 percent from 2009. This jump         quarterly based on
was due in part to a change in the way the Postal          changes in the discount
Service measures liability. While DOL uses a simple        and inflation rates and on
average of 10-year Treasury note rates, the Postal         the actuarial re-evaluation
Service opted to use a different standard which uses       of existing cases.
Treasury spot rates.31

Overall, the number of injuries and illnesses reported by the Postal Service to the
Occupational Safety and Health Administration (OSHA) has fallen from around 77,000
in 2002 to approximately 40,000 in 2010. However, as Figure 7 illustrates, the dollar
amount of future liability for the cases which are approved by DOL is growing
significantly. The Postal Service estimates that actual workers’ compensation costs
(annual cash payouts) will increase an average of 2 to 4 percent annually through
2020.32 The Postal Service has stated that ever-increasing workers’ compensation costs
are one of three major sources of continued financial concern with the other two being
declining revenue and the RHBF.33

Although federal agencies including the Postal Service have been working with the DOL
to reduce the workers’ compensation rolls across the federal workforce through private
sector placements, retirements and reductions in compensation, legislative action may
be necessary to reduce this growing cost burden. One possible option would be to
withdraw from the DOL program and establish a separate workers’ compensation
program administered by the Postal Service under OWCP oversight, rather than its
operational control. This would eliminate the large annual charge paid by the Postal
Service annually to OWCP which is based on a percentage of the total amount paid
rather than a fee per case type system. The current structure creates a moral hazard for
DOL and lessens any incentive they have to reduce charges to the Postal Service.
29
   U.S. Postal Service, 2009 Annual Report, http://www.usps.com/financials/ar/welcome.htm, p. 77.
30
   U.S. Postal Service, 2010 Annual Report, p. 78.
31
   U.S. Postal Service Office of Inspector General, Management Advisory – Workers’ Compensation Liability Estimate
(Report Number FT-MA-11-002), p. 3.
32
   U.S. Postal Service, Action Plan for the Future, http://www.usps.com/strategicplanning/_pdf/ActionPlanfortheFuture
_March2010.pdf, p. 9.
33
   U.S. Postal Service, 2010 Comprehensive Statement on Postal Operations, p. 45.


                                                         14
U.S. Postal Service Office of Inspector General                                                                               July 20, 2011
The Cost Structure of the Postal Service                                                                                   RARC-WP-11-007

                  Figure 7: Workers’ Compensation Trends and Injury/Illness Cases, 2002 – 2010

             $16,000                                                                           90,000                          Present 
                       77,877 
                       claims                                                   $12,589 m                                      Value of 
             $14,000                                                                           80,000                          Liability for 
                                                                                                                               future 
                                                                                               70,000
             $12,000                                                                                                           OWCP 
                                                                                                                               payments
                                                                                               60,000




                                                                                                        Number of Claims
             $10,000                                                                                                           Amount of 
                       $6,525 m                                                      40,588                                    Annual 
                                                                                               50,000
  Millions




                                                                                     claims                                    OWCP Cash 
              $8,000
                                                                                                                               Payout to 
                                                                                               40,000
                                                                                                                               DOL
              $6,000
                                                                                               30,000
                                                                                                                               Total USPS 
              $4,000                                                                                                           Injury/Illnes
                                                                                               20,000
                                                                                                                               s Cases
                       $1,511 m                                                  $1,110 m
              $2,000                                                                           10,000

                  $0                                                                           0
                       2002   2003    2004       2005   2006   2007    2008   2009    2010

Sources: U.S. Postal Service Annual Reports and Comprehensive Statements, and Dept. of Labor OSHA Federal
Injury and Illness Statistics Annual Reports



Non-Labor Costs
Although the vast majority of Postal Service costs consists of compensation for
employees and retirees, expenses other than labor are still significant. Notably, Postal
Service management has more discretion to control these costs. As shown in Table 3,
these expenses were down 3.1 percent in 2010 while mail volume was down 3.5
percent.
                Table 3: Costs by Non-Labor Category, Change over Same Period Last Year (SPLY)

                                                   Costs by Category (Millions)                Cost Change over SPLY
               Non-Labor Categories
                                                                                               2009 to 2008 to 2007 to
                                                 2010      2009        2008          2007
                                                                                                2010    2009    2008
              Other                          $ 1,319 $ 1,409 $ 1,506 $ 1,497                    -6.4%               -6.4%      0.6%
              Information Technology         $     664 $       722 $      658 $        630      -8.0%                 9.7%     4.4%
              Vehicle Maintenance            $     820 $       760 $      926 $        760      7.9%            -17.9% 21.8%
              Building Expenses              $ 1,692 $ 1,778 $ 1,779 $ 1,700                    -4.8%               -0.1%      4.6%
              Supplies and Services          $ 2,236 $ 2,321 $ 2,597 $ 2,594                    -3.7%           -10.6%         0.1%
              Purchased Transportation $ 5,878 $ 6,026 $ 6,961 $ 6,502                          -2.5%           -13.4%         7.1%
              Total Non-Labor                $ 12,609 $ 13,016 $ 14,427 $ 13,683                -3.1%                -9.8%     5.4%
             Source: U.S. Postal Service Annual Reports 2010 and 2009




                                                                  15
U.S. Postal Service Office of Inspector General                                                   July 20, 2011
The Cost Structure of the Postal Service                                                       RARC-WP-11-007


Though purchased transportation (discussed in detail below) represents 46.6 percent of
non-labor expenses, this is only 7.8 percent of total costs. Non-labor expenses other
than purchased transportation dropped 3.7 percent in 2010 over the same period last
year (SPLY) due in large part to reductions in travel expenses and lower fuel costs.34

The Postal Service also incurs significant expenses for supplies and services. It pays for
processing equipment supplies and maintenance, building and custodial services,
advertising, and expedited mail supplies, among other such items. Overall, supplies and
services decreased 3.7 percent from 2009, though advertising costs increased due to
the Priority Mail Flat Rate products campaign. Spending on IT, including
communications, declined 8 percent after communications upgrades were made in
2009.35

Additionally, the Postal Service spends nearly $2 billion on building expenses to operate
and maintain its real estate inventory of more than 34,000 facilities. Annual net rental
costs exceed $1 billion.36 This expense reflects the fact that almost three-quarters of
Postal Service facilities are leased.37

Another area showing significant cost increases in 2010 was for the organization’s fleet
of vehicles for delivery and local transportation. The Postal Service spent $800 million
on vehicle maintenance to operate its own vehicles as well as those owned by rural
carriers. The amount for vehicle maintenance service costs increased by 7.9 percent in
2010 over 2009 due primarily to increases in fuel costs, though maintenance for delivery
vehicles remains high as the Postal Service extends the use of their long-life vehicles
(LLVs). In 2009, the Postal Service spent $524 million to repair them. Postal
                              management has estimated that it would cost approximately
   The Postal Service         $4.2 billion to replace the entire fleet.38
   estimates that it
   has already saved          Facility energy consumption has recently become a major
   around $400 million        area of cost cutting as the Postal Service has set a number
   in facility energy         of goals to reduce energy, petroleum, and water use at
   costs since 2006.          facilities over the next 5 years.39 The Postal Service
                              estimates that it has already saved around $400 million in
facility energy costs since 2006.40 These cost savings are continuing due to the
establishment of an ambitious set of goals to reduce overall energy use at facilities by
30 percent, petroleum use by 20 percent, and water use by 10 percent by 2015.41




34
   U.S. Postal Service, 2010 Annual Report, p. 52.
35
   Ibid.
36
   Ibid., p. 37.
37
   Ibid.
38
   Ed O'Keefe, "Postal service in a bind on upkeep of vehicle fleet," The Washington Post, June 18, 2010, p. B3.
39
   “Green Teams Help Postal Service Save Millions,” January 25, 2011, http://www.usps.com/communications/news
room/2011/pr11_008.htm.
40
   United States Postal Service, “Postal Service Moves Closer to Energy, Fuel Reduction Goals,” News Release, May
11, 2010, http://www.usps.com/communications/newsroom/2010/pr10_050.htm.
41
   “Green Teams Help Postal Service Save Millions,” January 25, 2011.


                                                       16
U.S. Postal Service Office of Inspector General                                                  July 20, 2011
The Cost Structure of the Postal Service                                                      RARC-WP-11-007


Purchased Transportation and Fuel Costs

The single largest Postal Service expense after compensation is purchased
transportation. In 2010, the Postal Service spent $5.9 billion moving mail between cities
with contracted highway, air, rail, and water transportation.

Figure 8 breaks these costs down by transportation mode. Overall, the cost of
purchased transportation has decreased by $148 million, or 2.5 percent, from 2009.42
                              Figure 8: Purchased Transportation by Mode, 2010




                                                                     Domestic Air
                                                                        $2 b 
                                         Highway                        34%
                                          $3.2 b 
                                           54%




                                                                  International
                                                                     $641 m 
                                                                      11%

                                                                                      Water
                                                           Rail                       $30 m
                                                          $39 m                       0.5%
                                                          0.7%

Source: U.S. Postal Service Cost Segments and Components Report 2010


Figure 9 notes the changes in domestic transportation costs by mode over the last
10 years. There has been a significant move towards highway transportation and away
from rail. Though still vulnerable to fuel shocks, highway offers the greatest control and
flexibility, while offering a competitive price.

Highway Transportation expenses in 2010 were $3.2 billion, an increase of $161 million
or 5.3 percent from 2009. Though volume declined 4 percent, the increase was the
result of higher fuel prices and increased contractual mileage driven. Contractual miles
42
     U.S. Postal Service, 2010 Comprehensive Statement on Postal Operations, p. 28.


                                                         17
U.S. Postal Service Office of Inspector General                                                       July 20, 2011
The Cost Structure of the Postal Service                                                           RARC-WP-11-007


driven in 2010 were 1.6 billion miles, an increase of 2.2 percent from 2009.43 The Postal
Service anticipates that the majority of the expected savings from its Network
Distribution Center (NDC) implementation44 will be realized beginning in the latter part of
2010 and continuing into 2011. However, a March 14, 2011 U.S. Postal Service OIG
audit of the NDC activation impacts concluded that the effort has realized about 39
percent of projected annual savings and a 10-percent improvement in package service
performance (based on available data). The shortfall occurs because the NDC initiative
increased surface transportation and created unanticipated mail volume between
processing facilities.45
                            Figure 9: Domestic Transportation by Mode, 2010 and 2000

               70%
                                 61%                                  FY 2000      FY 2010
               60%
                           52%
               50%
                                               41%
               40%                                   38%

               30%

               20%

               10%                                                  7%
                                                                          1%            1%    1%
                0%
                           Highway                Air                 Rail               Water

Source: U.S. Postal Service Cost Segments and Components Reports 2000 and 2010


Total air transportation expenses in 2010 of $2.4 billion decreased 7.7 percent from
2009. The domestic air expense of $1.9 billion decreased 1.9 percent while international
air expenses of $449 million decreased 26.6 percent. These decreases were largely
driven by dropping mail volume. For domestic air, another cause of the decrease was
the shift to lower-cost highway transportation created by the NDC implementation while
the reduction in international air expense was driven by decreases in foreign postal
transaction fees and a new competitive contract bidding system for international air
carrier rates. Rail transportation expense was significantly lower in 2010, down to $39.2
million, or 55 percent. According to the Postal Service and despite recent improvements
in the quality of rail service, the shift to highway transportation from rail was part of the
NDC project implementation.46



43
   U.S. Postal Service, 2010 Report on Form 10k, pp. 24-25.
44
   The Network Distribution Center (NDC) concept implementation began in 2009. The goal of the concept is to
improve network flow through both better package distribution and transportation utilization.
45
   U.S. Postal Service Office of Inspector General, Audit Report, Network Distribution Center Activation Impacts,
Report No. EN-AR-11-002, March 14, 2010, http://www.uspsoig.gov/foia_files/EN-AR-11-002.pdf.
46
   U.S. Postal Service, 2010 Report on Form 10K, p. 24.


                                                           18
U.S. Postal Service Office of Inspector General                                                     July 20, 2011
The Cost Structure of the Postal Service                                                         RARC-WP-11-007


Issues and Policy Options

The volatility of fuel prices and the payment process for fuel are two areas of particular
concern. The Postal Service remains vulnerable despite its massive fleet of alternative
fuel-capable vehicles and the replacement of some 6,500 gasoline-powered vehicles
with ethanol-capable and gasoline/electric hybrids through a GSA program. Additionally,
the fuel purchase program for transportation contractors has left the Postal Service
vulnerable to program misuse.

Controlling Fuel Costs
As noted already, changes in fuel prices are a primary driver in the cost of purchased
transportation, and they are again on the rise in 2011. The Postal Service pays directly
for contractor fuel47 and, therefore, its transportation providers have no financial
incentive to purchase the cheapest fuel available, use fuel efficient vehicles, or
negotiate retail discounts. By contrast, major transportation companies typically have
significant discount agreements with their retail fuel
providers.                                                         The Postal Service
                                                                   bears all fuel price
The Postal Service bears all fuel price volatility risk under      volatility risk under
its current fuel program.48 The Postal Service could               its current fuel
dramatically improve its fuel program by simply adopting           program.
the transportation industry’s standard best practices,
including the revamping of the highway transportation contracting program to push fuel
purchasing down to the contractors themselves and developing an adjustment
mechanism tied to a fuel price index to limit Postal Service exposure to price
fluctuations, Such efforts along with providing assistance and incentives towards fuel
conservation could yield significant cost savings when prices rise.


Capital Investment
Capital investments, that is investments in mail processing equipment, facilities, retail
support technology, infrastructure, and vehicles, are intended to support operations for
a number of years and return more in savings than their costs over their useful lives.
While the costs are in actual dollars, and capital spending causes changes to the Postal
Service’s cash position, only depreciation and amortization of the existing stock of
capital show up in the Postal Service’s operating expenses. Depreciation and
amortization are the estimated write-off for aging Postal Service physical assets, which
amounted to $2.5 billion in 2010.49



47
   The Postal Service provides Voyager Cards, which are similar to debit cards, to its highway contractors to
purchase fuel. This program is unique in the industry for contracted transportation.
48
   U.S. Postal Service Office of Inspector General, Audit Report – Management of the Highway Contract Route
Voyager Card Program, Report No. NL-AR-11-003, June 7, 2011, http://www.uspsoig.gov/foia_files/NL-AR-11-
003.pdf.
49
   U.S. Postal Service, 2010 Annual Report, p. 52.


                                                        19
U.S. Postal Service Office of Inspector General                                                    July 20, 2011
The Cost Structure of the Postal Service                                                        RARC-WP-11-007


Fiscal Year 2010 ended with 14 open projects that amount to $3.7 billion in approved
capital.50 While new capital commitments were $1.3 billion (Table 4), the Postal Service
actually made cash expenditures of $1.4 billion for capital projects in 2010 (Figure 10),
mostly related to the completion of commitments made in past years.51

As shown in Table 4, 59 percent of new commitments were for mail processing
equipment, including continued deployment of the Flat Sequencing System (FSS
machines), and 30 percent for building improvements, construction, and purchasing.
The remaining 11 percent of the Postal Service’s 2010 capital commitments was
allocated for other equipment and vehicles.

                                      Table 4: Capital Commitments, 2010


             Investment Type                             Amount (millions)             Share

             Mail Processing Equipment                           $772                  58.7%
             Building Improvements                               $397                  30.2%
                                          1
             Postal Support Equipment                             $73                   5.6%
             Construction and Building Purchase                   $33                   2.5%
             Retail Equipment 2                                   $33                   2.5%
             Vehicles                                               $7                  0.5%
             Total Capital Commitments                         $1,315                  100%
             1
              E.g., General, administrative, automated data processing support such as servers,
             plotters, and high-speed copiers
             2
                 E.g., Lobby, window service, workstations (IRT, POS ONE), automated postal centers

            Source: U.S. Postal Service Annual Report 2010

Major capital investments often take years to implement, and commitments can differ
sharply from expenditures in any given year since expenditures are made incrementally
to pay for past commitments.

Issues and Policy Options

In 2010, the Postal Service completed 9 projects worth $1 billion in approved funding. In
comparison, the Postal Service completed a total of 10 projects worth $1.6 billion in
approved capital funding in 2009.52 Capital expenditures have dropped 24 percent in
2010 during which time volumes dropped 4 percent (Figure 10). According to the Postal
Service, this is a reflection of the capital spending freeze that was initiated in 2009 to
limit spending to projects that are necessary for safety/health, operations maintenance
and future savings, according to the Postal Service’s 2010 10K report.53 However,


50
   U.S. Postal Service, 2010 Report on Form 10K, p. 28.
51
   U.S. Postal Service, 2010 Annual Report, p. 2.
52
   U.S. Postal Service, 2010 Report on Form 10K, p. 28.
53
   Ibid., p. 26, and U.S. Postal Service, 2009 Report on Form 10K, November 16, 2009, http://www.usps.com/financial
s/ar/ welcome.htm #10k, p. 24.


                                                         20
U.S. Postal Service Office of Inspector General                                                                     July 20, 2011
The Cost Structure of the Postal Service                                                                         RARC-WP-11-007


capital expenditures have been falling since 2007 even prior to the freeze as mail
volume began its decline.

                                       Figure 10: Capital Expenditure and Mail Volume Trends, 2000 - 2010

                                       250                                                                4.0 
                                                                                  Mail Volume Declining   3.5 




                                                                                                                  Capital Expenditures (billions)
                                       200
                                                                                                          3.0 
              Mail Volume (billions)




                                       150                                                                2.5 

                                                                                                          2.0 
                                       100                                                                1.5 

                                               Capital                                                    1.0 
                                        50     Spending               Stock Market
                                               Freeze                 Crash, Sep 2008                     0.5 

                                         0                                                                ‐




Source: U.S. Postal Service Annual Reports 2001 to 2010


The freeze in capital expenditures raises an important question about future efficiency
improvements. Traditionally, capital investments have been a major driver in the Postal
Service’s productivity gains over the years. If the freeze remains in effect with the focus
on repairing existing facility infrastructure, will the Postal Service be able to continue
making productivity gains and improving efficiency? This paradox is one that will
challenge postal management as they attempt to make only the most essential
investments over the coming years. UPS traditionally invests between 5 and 8 percent
of its revenue into capital expenditures though it expects to temporarily lower that to
about 4 percent because of the economic slowdown.54 This greatly reduced rate would
translate to an annual postal capital investment of about $3 billion.

Developing new digital applications and services and the accompanying IT
infrastructure will require significant investment. The average capital commitment from
2009 to 2011 was $1.5 billion (2011 being $1.4 billion), which is far below the average
of $2.4 billion or a drop of 38-percent from the previous four years. Fiscal Year 2011
commitments include $600 million for facility renovations, $400 million for new
equipment, and an additional $400 million for IT and communications equipment
upgrades.55 Spending more to bring in additional revenue will remain a major challenge
over the coming years.



54
   “UPS Sees Economy Gaining Steam in 2nd Half,” Reuters, June 1, 2011, http://www.reuters.com/article/2011/06/01
/us-ups-idUSTRE7506T920110601.
55
    U.S. Postal Service, 2011 Integrated Financial Plan, http://www.usps.com/financials/_pdf/2011_IFP.pdf, pp. 5-6.


                                                                      21
U.S. Postal Service Office of Inspector General                                July 20, 2011
The Cost Structure of the Postal Service                                    RARC-WP-11-007


Conclusion
Overall, despite significant efforts by Postal Service management to reduce workhours
and rein in both operating and non-operating costs over the past few years, a number of
cost burdens remain beyond its control due to congressional and regulatory
requirements as well as contractual obligations. From developing a more balanced price
cap mechanism to determining the financial impact of early retirement to revamping the
workers’ compensation program, labor and, in particular, benefit costs, are growing
disproportionately and at unsustainable rates. The policy options discussed in this paper
are aimed at developing an understanding of the recent trends influencing labor costs.
Non-labor costs and capital investments continue to pose their
                                                                     The Postal
own challenges, including rising fuel costs, transportation
                                                                     Service is at a
contract management problems, and the capital investment
                                                                     critical juncture
conundrum of investing for critical needs in the future while
facing insufficient funding for the present.                         in its history.

The Postal Service is at a critical juncture in its history. Only through a combination of
continued cost reductions including a rightsizing of the network to meet declining
demand, legislative action to deal with cost burdens, and investing in select projects that
continue its long history of productivity increases can the Postal Service return to
economic viability.




                                                  22
U.S. Postal Service Office of Inspector General             July 20, 2011
The Cost Structure of the Postal Service                 RARC-WP-11-007




                                            Appendices




                                                  23
U.S. Postal Service Office of Inspector General                                                   July 20, 2011
The Cost Structure of the Postal Service                                                       RARC-WP-11-007




Appendix A: Product Cost Allocation

The Postal Service is a multiproduct firm with a shared network for distribution and
delivery. The Postal Service knows how much it spends in 18 cost segments, for
example carrier wages, fuel, utilities, rent, supplies, and services. If the Postal Service
treated each of its products as a separate business with its own carriers and processing
facilities, it would be easy to find the cost of an individual product, but it would not be an
efficiently run operation. By handling different types of mail together (for example,
sending one carrier to a delivery point each day), the Postal Service saves costs and
leverages resources.

Costs are separated between attributable costs (volume-variable costs plus product-
specific costs, e.g., the cost of advertising by product), and institutional costs using
econometric analysis. Attributable costs are then distributed to products (mail classes
and subclasses) using statistical sampling systems and evaluative techniques.

Table 5 below shows revenue and attributable costs broken out mostly by mail classes.
The difference between revenue and attributable costs is called contribution — that is,
how much that product has contributed toward institutional costs or common costs. For
example, First-Class Mail generated $34 billion in revenue, but its attributable costs
were only $17 billion. This means that it contributed nearly $17 billion toward common
institutional costs. Its cost coverage, defined as revenue divided by volume-variable
costs, was 199 percent.
                  Table 5: Attributable Costs, Contribution, and Cost Coverage, 2010
                                                                    Contribution to            Cost
                                      Revenue       Attributable
                                                                     Institutional          Coverage
                    Mail Class        (millions)   Costs (millions)
                                                                    Costs (millions)         Percent
                                         (a)              (b)
                                                                        (c=a-b)              (d=a/b)
          Market Dominant            $    57,728 $          35,253 $           22,475        164%
            First-Class Mail         $    34,025 $          17,075 $           16,950        199%
            Standard Mail            $    17,330 $          11,818 $               5,512     147%
            Periodicals              $     1,879 $              2,490 $             (611)     75%
            Package Services         $     1,516 $              1,697 $             (182)     89%
            Special Services         $     2,978 $              2,172 $             806      137%
          Competitive                $     8,678 $              6,257 $            2,422     139%
            Priority Mail            $     5,657 $              4,247 $            1,410     133%
            Express Mail             $       828 $               496 $              332      167%
            Competitive International $    1,490 $               979 $              511      152%
            Ground                   $       569 $               420 $              149      135%
            Competitive Services     $       135 $               116 $               19      117%
            Other                    $       669          N/A                N/A              N/A
          Total Mail & Services      $    67,076 $          41,510 $           25,566        162%
         Source: U.S. Postal Service Cost and Revenue Analysis Report 2010



                                                     24
U.S. Postal Service Office of Inspector General                                                 July 20, 2011
The Cost Structure of the Postal Service                                                     RARC-WP-11-007



Appendix B: Total Factor Productivity

The Postal Service uses Total Factor Productivity (TFP), a broad measure of
operational efficiency, defined as workload executed divided by resources used.
Resources include labor, capital, and materials. The TFP formula is not concerned with
costs or price increases, but rather emphasizes the physical units or quantities of input
and output. Table 6 shows the TFP outputs (workload) and inputs (resources) that are
used to calculate the 2.2-percent TFP increase in 2010.

                              Table 6: USPS Total Factor Productivity 2010

                             TFP Workload                            TFP Resources
                                         Actual       Plan                   Actual      Plan
                 Weighted Mail Volume ‐5.5%          ‐7.0%   Labor            ‐5.8%     ‐7.9%
                 Miscellaneous Output     2.4%       ‐4.8%   Materials        ‐4.3%      2.4%
                 Delivery Points          0.7%        0.8%   Capital          ‐2.2%     ‐1.3%
                 Workload Growth         ‐3.2%       ‐4.6%   Resource Usage ‐5.3%       ‐5.7%
                                                     Total Factor Productivity  2.2%    1.2%
               Source: USPS Total Factor Productivity for FY 2010

The outputs, or workload, are comprised of the mail volume and delivery points and the
inputs, or resources, consist of capital, labor, and materials. Some criticize TFP for
failing to include service measurement as a component. If the Postal Service reduces
service to cut costs, it could improve TFP without truly becoming more efficient.
Moreover, becoming more efficient does not have a predictable impact on overall
financial performance. Net income also depends on the prices of inputs and the rates
that the Postal Service charges for its services. TFP growth, however, does save the
Postal Service money and thus creates an opportunity to improve its financial
performance.

Since 1972, cumulative TFP growth is 20.3 percent.56 Historically, increases in mail
volume allowed the Postal Service to raise TFP by producing more workload with the
same resources. However, beginning in 2002, there was a shift in the typical pattern
when mail volume actually declined due to substitution of electronic for physical
communication, yet TFP growth remained positive. According to the Postal Service,
productivity gains are also the result of the efficient use of supplies and services,
including transportation, and employing more automation to improve return-on-capital
investments.57 The efficiency improvements from 2000 through 2007 resulted in an
average annual TFP growth rate of 1.5 percent, five times faster than during the
previous 30 years.58

56
   U.S. Postal Service, 2010 Annual Report, p. 53.
57
   U.S. Postal Service, 2010 Report on Form 10K, p. 13.
58
   U.S. Postal Service, USPS Annual Tables FY 2010 TFP, December 7, 2010, http://www.prc.gov/prc-
pages/library/detail.aspx?docketId=&docketPart=Documents&docid=72218&docType=Periodic
percent20Reports/Data percent20Reports&attrID=&attrName=, Table 52.


                                                      25
U.S. Postal Service Office of Inspector General                                                 July 20, 2011
The Cost Structure of the Postal Service                                                     RARC-WP-11-007


Over the past 4 years, the Postal Service experienced a precipitous 20-percent loss of
mail volume that was further exacerbated by the recession of 2008 to 2009.59 Such a
steep volume drop left the Postal Service unable to shed resources at pace with
volume. As a result, the TFP growth rate fell below zero in 2008 and 2009.60 However,
in 2010 the Postal Service was again able to raise TFP by over 2 percent despite a mail
volume decline of 3.5 percent. According to the Postal Service’s annual report, a
contributor to this reversal was a 6 percent or 70 million reduction in processing
workhours due to plant consolidation, network optimization, and automation adoption.
Consolidating carrier routes resulted in a 20.1 million workhour reduction in City and
Rural Delivery Operations hours. Increased use of Click n’ Ship, APCs, and other
alternate customer access channels enhanced the customer experience while reducing
18.1 million customer service operations workhours. Lastly, a capital expenditure freeze
reduced such costs by 24 percent, decreasing the quantity of capital used.61 Figure 11
shows the history of TFP and mail volume from 2000 to 2010.

                   Figure 11: Total Factor Productivity and Mail Volumes 2000-2010

        220                                                                                         2.5%
                                                       Mail Volumes (billions)
        210                                                                                         2.0%

                                                                                                    1.5%
        200
                                                                                                    1.0%
        190
                                                                                                    0.5%
        180
                                                                                                    0.0%
                       Total Factor Productivity
        170                                                                                         ‐0.5%

        160                                                                                         ‐1.0%
               2001    2002   2003    2004    2005   2006   2007   2008    2009   2010
Source: USPS Total Factor Productivity for FY 2010


Since 2001, the Postal Service has utilized the Breakthrough Productivity Initiatives
(BPI) and Lean Six Sigma (LSS) to drive reductions in TFP inputs and thus TFP growth.
Over 800 continuous improvement projects have been identified, and in 2010,
workhours were reduced 6 percent on average across the mail processing, customer
service, delivery, and post office management components.62




59
   U.S. Postal Service, 2010 Annual Report, p. 22.
60
   U.S. Postal Service, USPS Annual Tables FY 2010 TFP, December 7, 2010, http://www.prc.gov/prc-
pages/library/detail.aspx?docketId=&docketPart=Documents&docid=72218&docType=Periodic
percent20Reports/Data percent20Reports&attrID=&attrName=, Table 52.
61
   U.S. Postal Service, 2010 Annual Report, p. 53.
62
   U.S. Postal Service, 2010 Comprehensive Statement on Postal Operations, p. 16.


                                                      26
